ES, IG-98-021, Improved Controls Needed Over NASA's Supercomputing Inventory
IMPROVED CONTROLS NEEDED OVER NASA'S
SUPERCOMPUTING INVENTORY
IG-98-021
Executive Summary
Introduction
The mission of the Consolidated Supercomputing Management Office (CoSMO) is
to meet the National Aeronautics and Space Administration's (NASA)
supercomputing requirements through effective and efficient management of
NASA's supercomputing resources.  In Fiscal Year 1997, CoSMO, located at the
Ames Research Center (ARC), initiated a consolidation study to determine the
optimal architecture for NASA's supercomputers.  CoSMO subsequently
clarified the different categories of supercomputers -- a change that is
likely to result in a significant reclassification of those machines.  CoSMO
will undertake a new consolidation study of NASA's supercomputers based on
the new classifications.
Objective
Our objective was to determine whether CoSMO had accurately identified
NASA's supercomputer inventory and supercomputing "time" (cycles)
acquired from external sources.
Results of Audit
CoSMO can improve its effectiveness as NASA's office for consolidated
supercomputing management by developing an accurate inventory of NASA's
supercomputers and supercomputing time purchased.  CoSMO's inventory was
inaccurate because CoSMO had not developed guidance that NASA managers could
use to report the necessary data.  Until such guidance is made available,
CoSMO cannot effectively and efficiently satisfy NASA's supercomputing
requirements.
Recommendations
We recommend that the CoSMO Director issue guidance to NASA Center Directors
and Enterprise managers to:
identify all NASA supercomputers and outside purchases of
supercomputing time; and
coordinate with CoSMO on their respective acquisition and retirement
plans for supercomputing resources.
Management's Responses to Recommendations
Management concurred with the recommendations.  CoSMO has taken several steps
to improve the accuracy of its supercomputer inventory.  Further, CoSMO plans
to revise its Program Plan to include guidance on how to purchase supercomputing
time and describe the coordination efforts for acquiring and retiring supercomputing
resources.
Evaluation of Management's Response
The actions taken and planned are responsive to the recommendations.